      Department of Homeland Security




            Review of Allegations of Misconduct and
                  Mismanagement Within TSA’s
                   Office of Global Strategies

                           (Redacted)




OIG-12-96                                             July 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                 July 2, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The Administrator, Transportation Security Administration, asked that we review several
allegations of management misconduct and program mismanagement within the Office of
Global Strategies. Our review focused on these allegations as well as related administrative
and operational issues. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Charles K. Edwards
                                      Acting Inspector General
Table of Contents/Abbreviations 



Executive Summary .............................................................................................................1 



Background ..........................................................................................................................2 



Results of Review ................................................................................................................5 



   OGS Took Corrective Actions on Assessments Conducted in Haiti .............................6 

    

   TSA Did Not Issue a Timely Emergency Amendment for Haiti .................................11 

   Recommendation .........................................................................................................15 

   Management Comments and OIG Analysis ................................................................15 

    

   TSA Has Not Evaluated Passenger Screening Procedures at 

      All Preclearance Airports ..........................................................................................16 

   Recommendation .........................................................................................................20 

   Management Comments and OIG Analysis ................................................................20 

    

   Creation of the Regional Director Position Raised Concerns ......................................21 

    

   TSAR Positions Are Properly Placed ..........................................................................27 

    

   The Effectiveness of Capacity Development Programs Is Difficult To Measure .......31 

    

   Perceptions of Discrimination, Favoritism, and the Abuse of Power Do Exist...........33 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................49 

     Appendix B:           Recommendations ................................................................................51 

     Appendix C:           Management Comments to the Draft Report .......................................52 

     Appendix D:           Current TSAR Locations and Areas of Responsibility ........................55 

     Appendix E:           TSARs With Responsibility for the Caribbean ....................................58 

     Appendix F:           Major Contributors to this Report ........................................................60 

     Appendix G:           Report Distribution ..............................................................................61 

Abbreviations
  ASSIST        Aviation Security Sustainable International Standards Team
  BMO           Business Management Office
  CAP           Cap Haitian International Airport
  CBP           Customs and Border Protection
  CDB           Capacity Development Branch
  DHS           Department of Homeland Security
  EA            Emergency Amendment
  EEO           Equal Employment Opportunity
  FY            fiscal year
  GAO           Government Accountability Office
  GC            Global Compliance
  GPP           Global Policy and Programs
  ICAO          International Civil Aviation Organization
  IIR           International Industry Representative
  IO            International Operations
  IPS           Integrated Plans and Support
  MSPB          Merit Systems Protection Board
  NSDD          National Security Decision Directive
  OCC           Office of Chief Counsel
  OGS           Office of Global Strategies
  OIG           Office of Inspector General
  OSO           Office of Security Operations
  PAP           Toussaint L'Ouverture International Airport
  RIPR          Risk/Incident-Driven Policy Review
  SARP          Standard and Recommended Practices
  SD            Security Directive
  SOP           Standard Operating Procedure
  TSA           Transportation Security Administration
  TSAR          Transportation Security Administration Representative
  TSNM          Transportation Sector Network Management
  TSS           Transportation Security Specialist
 OIG

 Department of Homeland Security 

 Office of Inspector General 


Executive Summary
                       On May 18, 2011, Transportation Security Administration (TSA)
                       Administrator John Pistole received a letter from an anonymous author
                       who made several allegations of misconduct and mismanagement
                       within TSA's Office of Global Strategies. Administrator Pistole asked
                       us to review the allegations.

                       The author provided only a general description of the allegations and
                       little or no supporting information or examples, and appeared to have
                       little understanding of some of the policies or programs implicated in
                       the allegations. The allegations fell into three broad categories:
                       security concerns, waste and inefficiency, and workplace issues.

                       We were unable to substantiate most of the author's allegations. Office
                       of Global Strategies took corrective actions on assessments conducted
                       in Haiti, is methodical in determining where to deploy its
                       representatives around the world, and did not circumvent the hiring
                       process or take improper actions to select two regional directors. The
                       Capacity Development Branch has spent thousands of dollars on its
                       training programs, but the allegation that its programs provide little
                       more than basic screener training is inaccurate. However, we
                       confirmed that TSA did not issue a timely Emergency Amendment for
                       Haiti following the 2010 earthquake, and has not evaluated all
                       preclearance airports as required. Office of Global Strategies is taking
                       action to strengthen the Emergency Amendment process and the
                       preclearance program.

                       We did not identify any discrepancies or evidence of favoritism
                       regarding Office of Global Strategies' administration of awards,
                       promotions and in-position increases, training, and hiring processes, but
                       some employees perceive problems in these areas. Many employees
                       claimed to be fearful of retaliation, but few said they actually
                       experienced it. We have made two recommendations in this report.




     Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                 Page 1

Background
                     In October 2007, the TSA established the Office of Global Strategies
                     (OGS) to consolidate all TSA international activities under one office,
                     streamline operations, and ensure a cohesive approach in support of
                     TSA's international aviation security mission. TSA brought together
                     under the direction of one Assistant Administrator personnel from
                     several offices, including the Office of Transportation Security Policy,
                     the Office of Security Operations (OSO), Transportation Sector
                     Network Management (TSNM), and Maritime and Land Security.

                     OGS' mission is to develop and promote the implementation of
                     effective/enhanced global transportation security processes and
                     structures worldwide while ensuring compliance with international
                     and TSA standards. To accomplish this mission, OGS works with
                     foreign partners and transportation entities operating overseas by
                     identifying risk through compliance assessments and inspections,
                     mitigating risk through capacity development and outreach/engagement,
                     and responding to international incidents as they occur.

                     OGS currently has approximately 240 personnel operating at various
                     domestic and international locations, and is organized into five
                     divisions:

                         •    Global Compliance (GC) evaluates foreign airport security
                              postures in accordance with recognized security standards
                              established by the International Civil Aviation Organization
                              (ICAO), a specialized agency within the United Nations. The
                              division is also responsible for conducting assessments on
                              foreign and domestic air carriers that provide international
                              service to the United States. To carry out its responsibilities
                              for conducting foreign airport and air carrier assessments, GC
                              employs Transportation Security Specialists (TSSs) who
                              operate out of one of the five Regional Operations Centers.

                         •    International Operations (IO) executes TSA's international
                              outreach and engagement strategy. To carry out its mission, IO
                              employs Transportation Security Agency Representatives
                              (TSARs). TSARs are stationed at diplomatic posts and serve




   Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page 2

                           as agency representatives to foreign governments and their
                           aviation authorities. They liaise with foreign governments to
                           initiate corrective actions and mitigate security deficiencies
                           identified in GC's foreign airport assessments, ensuring that
                           foreign air transportation systems meet international standards
                           for aviation security. TSARs also work toward the immediate
                           implementation of enhanced security measures to counter
                           terrorism threats not originally identified when international
                           aviation security standards were developed.

                      •	 Global Policy and Programs (GPP) is the primary aviation
                         security policy office in OGS. GPP is divided into three
                         branches. The Global Policy and Programs Branch develops
                         transportation security processes. The International Air Carrier
                         Program Branch consists of a group of International Industry
                         Representatives (IIRs) who serve as the primary liaison
                         between TSA and foreign air carriers and foreign all-cargo
                         carriers regarding aviation security matters. The Cargo Branch
                         advises OGS leadership on air cargo security matters and
                         manages OGS involvement in international air cargo security
                         programs.

                      •	 Integrated Plans and Support (IPS) serves both an operational
                         and internal support mission. IPS is divided into four
                         branches. The Capacity Development Branch (CDB) provides
                         targeted assistance to foreign aviation security partners in
                         countries where aviation security assistance is necessary for the
                         enhancement of security or where measures in place do not
                         meet either international or U.S. standards. The Training and
                         Development Branch manages OGS employee training and
                         professional development programs. The Rapid Response
                         Branch manages OGS critical incident or disaster response
                         operations. The Risk/Systems Branch supports OGS by
                         managing technical innovation and risk analysis programs.

                      •	 Business Management Office (BMO) oversees resources and
                         services in support of OGS operational readiness. It is divided
                         into Human Resources, Budget, and Logistics branches.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 3
                  In response to new challenges in securing inbound international
                  flights, most notably the failed 2009 Christmas Day bombing,
                  Congress has allocated additional resources to OGS. For example, in
                  fiscal year (FY) 2011, Congress provided an additional $32.2 million
                  to fund 74 new positions to enhance and manage international
                  programs at 25 offices in high-risk areas, in order to train host nations
                  to mitigate vulnerabilities and ensure that they comply with
                  international aviation standards. In FY 2012, OGS plans to hire an
                  additional 53 personnel, including seven Supervisory TSSs and 35
                  TSSs, when funds become available.

                  The Allegations

                  On May 18, 2011, TSA Administrator Pistole received a letter from an
                  anonymous author who made several allegations of misconduct and
                  mismanagement within OGS. The author also wrote that many
                  believe that TSA's Deputy Administrator knew misconduct and
                  mismanagement existed and withheld information from the TSA
                  Administrator.

                  The author provided only a general description of the allegations and
                  little or no supporting information or examples, and appeared to have
                  little understanding of the many policies or programs implicated in the
                  allegations. The author remained anonymous during this review.
                  Based on what we could infer from the letter, the allegations fell into
                  three categories:

                  1.	 Security concerns resulting from the failure to-

                      •	 Take corrective actions with regard to TSA assessments
                         conducted in Haiti;
                      •	 Issue Emergency Amendments in a timely manner; and
                      •	 Address deficiencies at preclearance airports promptly.

                  2.	 Waste and inefficiency due to the-

                      •	 Creation of the Regional Director position;
                      •	 Random placement of TSARs;
                      •	 Programs administered by CDB; and




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 4
                          •    Volume of unnecessary travel.

                      3. Workplace issues involving-

                          •    Discrimination;
                          •    Favoritism; and
                          •    Abuse of power

Results of Review
     We were unable to substantiate most of the anonymous author's allegations. OGS
     took corrective actions on assessments conducted in Haiti, is methodical in
     determining where to deploy its representatives around the world, and did not
     circumvent the hiring process or take improper actions to select two regional
     directors. CDB has expended significant resources on training, and the allegation that
     its programs provide little more than basic screener training is inaccurate. We
     confirmed that TSA did not issue a timely Emergency Amendment for Haiti after the
     2010 earthquake and that TSA has not evaluated all preclearance airports. TSA is
     taking action to strengthen the Emergency Amendment process and the preclearance
     program. We also determined that OGS follows a thorough process to evaluate,
     select, and deploy TSARs.

     Immediately after we initiated our review, several current and former employees
     contacted us to talk about their experiences in OGS. Employees were less concerned
     about the "security� and "waste and inefficiencies� issues raised in the email-some
     challenged that these were even issues-and were much more interested in discussing
     possible acts of discrimination, favoritism, and abuse of power. We engaged with
     employees at all levels of OGS to gain a better understanding of the work environment
     and how OGS carries out its mission. We seldom heard concerns about how OGS
     accomplishes its aviation security responsibilities.

     Some employees made allegations against specific supervisors or managers.
     Although we obtained a general understanding about those situations, we did not
     review these individual allegations in depth because the determination of whether one
     employee was retaliated against, discriminated against, or favored over another is a
     complex matter that may not be resolved until reviewed by the Equal Employment
     Opportunity Commission, Merit Systems Protection Board (MSPB), or a court of
     law. Overall, employees' opinions of management were mixed, although few




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                Page S

employees complained that OGS is not carrying out its aviation security
responsibilities adequately.

OGS Took Corrective Actions on Assessments Conducted in Haiti
         The author of the letter characterized OGS' involvement in Haiti after the
         January 2010 earthquake as "disastrous.� The author alleged that, although
         numerous deficiencies in critical areas were identified, OGS failed to follow
         its own security policies and procedures and, most important, failed to take
         immediate action to correct identified vulnerabilities. This, the author
         alleged, meant that the Haitian airports operated with great risk and
         vulnerabilities for months. To protect sensitive security information, the
         author did not provide any details.

         Based on the security assessments OGS conducted in Haiti, the actions OGS
         has taken to address the deficiencies identified in those assessments, and
         additional actions OGS has taken in Haiti, we determined that TSA took
         appropriate corrective actions in Haiti.

                  OGS Deployed Incident Response Teams to Haiti After the
                  Catastrophic Earthquake in January 2010

                  The Republic of Haiti has two international airports that operate flights
                  to the United States. Toussaint L'Ouverture International Airport
                  (PAP) in the capital city of Port-au-Prince is the country's primary
                  airport, offering commercial air service by major U.S. and
                  international air carriers. PAP security staff includes 165 Security
                  Agents and 15 supervisory staff. Cap Haitian International Airport
                  (CAP) is located in the northern coast city of Cap Haitian. CAP,
                  which operates a small number of charter and cargo carrier flights to
                  the United States, is staffed by 20 Security Agents and five
                  supervisors.

                  On January 12, 2010, a catastrophic earthquake struck Haiti. The
                  magnitude 7.0 earthquake's epicenter was approximately 16 miles
                  southwest of Port-au-Prince. This earthquake caused extensive
                  damage to buildings and infrastructure, including significant damage
                  to PAP. The Haitian Government reported that between 217,000 and




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 6
                  230,000 people died, and estimated that 1 million people were left
                  homeless.

                  On January 13, 2010, OGS activated a Crisis Incident Management
                  Group. TSA's mission in response to the earthquake was to protect
                  passengers traveling on U.S. and non-U.S. aircraft operating to and
                  from the United States. After the earthquake, OGS deployed "Go
                  Teams� to Port-au-Prince and Santo Domingo, Dominican Republic.
                  The Go Team deployed to Santo Domingo, which arrived on January
                  19, 2010, provided aviation security oversight at Las Americas
                  International Airport and coordinated with the Department of State for
                  the evacuation of U.S. citizens from the U.S. Embassy in Haiti to San
                  Ysidro Air Base in Santo Domingo. After conducting an initial airport
                  security assessment, the Go Team noted no security deficiencies at
                  either Las Americas International Airport or San Ysidro Air Base.
                  The Go Team operating in Santo Domingo departed January 28, 2010.

                  The Go Team assigned to PAP in Port-au-Prince arrived on January
                  20, 2010. After its initial assessment of PAP security operations, the
                  Go Team identified the following problems:


                                                                           The Haiti Go
                  Team's efforts included establishing security checkpoints to conduct
                  evacuee operations, assisting in perimeter control, reducing tarmac
                  congestion, providing logistical support, facilitating incoming relief
                  supplies, and assisting in the restoration of commercial flight
                  operations at PAP. On February 3, 2010, TSA screening equipment
                  and technology were deployed to PAP by military aircraft. This
                  shipment included five x-ray machines, five walk-though metal
                  detectors, three explosive trace detection machines, 25 handheld metal
                  detectors, and 60 storage bins for passengers' use at the x-ray
                  screening stations. Beginning on February 9, 2010, OGS staff trained
                  89 Haitian National Airports Authority security employees and 15
                  U.S. Air Force personnel on how to set up a checkpoint and how to
                  calibrate and operate the screening equipment.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 7
                             On February 19, 2010, limited commercial air service from PAP to the
                             United States was resumed. Over the next few days, the Go Team
                             observed security operations for the screening of commercial flights to
                             the United States, and made on-the-spot adjustments to procedures
                             until the Go Team's post-earthquake assistance at PAP ended on
                             February 21, 2010.

                             OGS Took Actions To Address Security Concerns

                             OGS conducted an assessment of PAP from March 24 through April 2,
                             2010. The assessment team concluded that most security measures at
                             PAP did not meet minimum international security standards for civil
                             aviation. The team identified five of the critical ICAO Standard and
                             Recommended Practices (SARP) categories as deficient.
                                                                   The assessment team
                             documented security deficiencies in the following categories:




                             In August 2010, OGS initiated the Aviation Security Sustainable
                             International Standards Team (ASSIST) program for Haiti to improve
                             aviation security procedures and raise the security level in Haiti to
                             international standards. 2 The Haiti ASSIST program employed a two-
                             phase approach. The first phase focused on mitigating the critical
                             SARPs identified in the March 2010 Foreign Airport Assessment



2
    See p. 31 for a detailed description of the ASSIST program.




          Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                      Page S

                           Report. 3 The second phase is to advance the long-term sustainability
                           of Haitian aviation security programs. Although the program aims to
                           enhance the security posture at both Haitian airports, OGS has focused
                           most of its resources on PAP, the nation's major international airport
                           as PAP has a significantly larger volume of commercial service to the
                           United States than CAP.

                           From October 13 to 24, 2010, and with the assistance of Transport
                           Canada and the Canadian Air Transport Security Authority, OGS
                           conducted ASSIST Security Screener Training at PAP. Screening
                           techniques training included instruction on improving security
                           procedures to identify and prevent the introduction of prohibited items
                           onto aircraft and in secure areas. ASSIST trainers presented a
                           screening instructor skills course to five security supervisors and two
                           National Airports Authority security operations employees. It was
                           OGS' intent to certify local screening instructors to train the National
                           Airports Authority screening workforce. The newly certified Haitian
                           security instructors, with support from ASSIST staff, then provided
                           screening techniques training for eight National Airports Authority
                           Security Agents. Following screener training, the ASSIST team
                           provided management training to 14 screening supervisors.

                           OGS conducted a foreign airport assessment of PAP approximately
                           1 year after the March 2010 assessment, from February 14 to 22, 2011.
                           The assessment team documented security deficiencies in the
                           following categories:




                           Although the assessment team did observe several security
                           deficiencies, including
                                      the airport's security posture had improved from the March

3
  Foreign Airport Assessment Reports document information gathered during Global Compliance assessments
of international airports. The reports contain an overview of assessment findings, operational information, and
recommendations for mitigating security deficiencies.




        Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                     Page 9

                  2010 assessment.

                                                             The assessment team
                  identified only one critical SARP deficiency, which improved PAP's
                  overall vulnerability rating. After that assessment, OGS conducted
                  ASSIST                     Training in Port-au-Prince. From April 24 to
                  28, 2011, ASSIST trainers provided                   training to 11
                  Haitian security screeners. The training was based on ICAO security
                  standards and focused on


                  OGS uses the Open SARP Tracking Tool to monitor deficiencies
                  noted in the assessment reports. This tool provides a record of any
                  unresolved or open deficiency noted after it is first reported until it is
                  resolved and closed. To further determine whether OGS has taken
                  actions to address security concerns, we reviewed Haiti aviation
                  security vulnerabilities documented in the Open SARP Tracking Tool.

                  We determined that OGS is mitigating security concerns at PAP. As
                  of October 19, 2011, either the TSAR for Haiti or the Haitian
                  Government began correcting seven of the eight open security items
                  listed in the Open SARP Tracking Tool. The open SARP item, which
                  did not list specific mitigating actions by either the TSAR or the
                  government, was the absence of an updated Airport Security Program
                  for PAP. However, OGS wrote a corrective action plan to assist Haiti
                  in updating the Airport Security Program.

                  OGS Has Developed a Long-Term Plan to Assist Haiti in
                  Establishing Sustainable Aviation Security Operations

                  In addition to providing training and technology to Haitian security
                  staff to mitigate critical SARPs, OGS has acknowledged the need to
                  address broader strategic issues in Haiti's aviation security programs.

                  For example, OGS has established a long-term strategy to address the
                  need to implement a sustainable aviation security framework in Haiti.
                  OGS implemented the Haiti Aviation Security Engagement Strategy
                  and Action Plan on August 1, 2011. The plan aims to enhance TSA's
                  efforts to assist the Government of Haiti in building an aviation




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 10
                  security framework, at both the national and airport level, which
                  provides for more effective aviation security measures to protect
                  travelers who fly.

                  In addition to identifying actions for mitigating specific aviation
                  security deficiencies, the plan specifies a comprehensive strategy to
                  improve Haitian airport security, which includes multilateral and
                  bilateral engagement among stakeholder nations, international
                  outreach to include other donor states, technical assistance for national
                  and airport security plans, and training courses, and continues needs
                  assessment. OGS plans to conduct modified airport assessments and
                  air carrier inspections in Haiti to evaluate the effectiveness of its
                  efforts.

                  The plan was scheduled to go into effect during the fourth quarter of
                  FY 2010 and remain in effect through FY 2013. However, OGS
                  management told us that continued political instability, as well as the
                  inability of Haiti to maintain security technology and equipment, have
                  hindered the plan's implementation and OGS's pursuit of long-term
                  strategic goals in the country.


TSA Did Not Issue a Timely Emergency Amendment for Haiti
         The author of the letter alleged that security is being compromised because
         OGS is taking too long to draft and release Emergency Amendments (EAs).
         The author claimed that Haiti is just one example of how time-consuming the
         EA process is. The author pointed out that an EA should have been drafted
         immediately after deficiencies were identified, but OGS took months to draft
         and release an EA. The author did not provide other examples.

         We confirmed that it took TSA several months to issue the EA for Haiti and
         that TSA's internal processes may have contributed to this delay. TSA issued
         the EA for Haiti on November 29, 2010, more than 10 months after the
         earthquake. However, in addition to OGS, several other TSA offices are
         involved in drafting and releasing EAs. Additionally, at the time TSA was
         preparing the Haiti EA, it did not have a Management Directive or Standard
         Operating Procedure (SOP) setting forth guidance and timelines for issuing
         EAs.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 11
                  Many Offices Have a Role in the EA Process

                  TSA uses EAs to revise the security requirements placed on foreign air
                  carriers in response to a specific incident or to mitigate an imminent
                  threat. When an incident occurs-such as the attempted terrorist
                  attack on Christmas Day 2009 or the attempted Yemen cargo-based
                  attack in October 2010-or an imminent threat arises, TSA evaluates
                  whether an EA is needed. As part of this process, OGS (and other
                  offices as appropriate) consults with TSA's Office of Intelligence. If it
                  decides that the severity of the situation or additional intelligence
                  justifies an EA, OGS identifies countermeasures that may be required
                  to mitigate the situation. All EAs are initially issued with a temporary
                  status, but they usually have a defined end date. EAs may be
                  permanently integrated into the baseline security requirements
                  contained in TSA's Model Security Program, which foreign air
                  carriers must adopt for permission to fly into and out of the United
                  States.

                  Although OGS has a major role in drafting and issuing EAs, OGS is
                  not the only TSA component involved in the process. Because EAs
                  must be co-drafted with Security Directives (SDs) issued to U.S.
                  carriers, OSO and TSNM share responsibility for creating an EA.
                  TSA's Office of Chief Counsel (OCC) provides legal guidance and
                  opinion on the nature and scope of the actions under consideration.
                  Depending on the issue being addressed, other DHS components and
                  other federal agencies may also be involved in the process. Some EAs
                  might require a final review by the White House National Security
                  Strategy Office. At a minimum, once TSA issues an EA, the
                  Department of State will facilitate distribution of advance copies to the
                  embassies. The responsible TSAR will communicate the technicalities
                  of the EA to the appropriate officials at the embassy.

                  Although TSA should issue EAs promptly, the timeframe from
                  drafting to issuance varies by the severity of the incident or
                  vulnerability. TSA can issue incident-driven EAs quickly. However,
                  EAs driven by security deficiencies, such as the situation in Haiti, take
                  longer to prepare because they must include recommendations for




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 12
                  corrective actions. These recommendations provide a basis of
                  comparison once the airports and air carriers are reassessed to
                  determine whether the issues have been resolved.

                  TSA issues EAs infrequently. TSA issued only 1 EA in 2009, 8 in
                  2010, and 13 in 2011. Of these 22 EAs, 3 were canceled, 2 expired
                  and were not reissued, and 1 was superseded. Accordingly, there are
                  only 16 active EAs. TSA has considered whether to issue other EAs.
                  However, given the nature of the incident or vulnerability and the
                  analysis of the threat, some proposed EAs were canceled during the
                  review process or when the situation that led to drafting the EA no
                  longer existed.

                  TSA Took at Least 4l Months To Issue the EA for Haiti

                  On November 29, 2010, TSA issued an EA for Haiti. This was at least
                  41 months after OGS finished drafting the EA and more than 10
                  months since the earthquake. The EA stipulated that prior to
                  departure, foreign air carriers must perform additional security
                  measures for flights bound for the United States from airports in Haiti.

                  OGS officials agreed that serious delays occurred between drafting
                  and releasing the Haiti EA. OGS officials could not identify the date
                  OGS began to draft the EA, nor could they estimate how long it took
                  for OGS to complete the initial drafting and review. They provided a
                  timeline showing that the draft EA and corresponding draft Security
                  Directive experienced a lengthy review that involved the OSO
                  Procedures Division, TSNM, General Aviation, and the OCC between
                  July 15 and November 24, 2010, when Administrator Pistole signed
                  the final EA. At the time that TSA was preparing the Haiti EA, there
                  was no established Management Directive or SOP concerning the
                  issuance of EAs. According to OGS management officials, this fact
                  contributed to the amount of time it took to issue the Haiti EA.

                  TSA Has Established a New EA Process

                  On July 22, 2011, TSA implemented the Risk/Incident-Driven Policy
                  Review (RIPR) process and assigned its oversight and responsibility to
                  OSO. RIPR establishes procedures for assessing requests for and




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 13
                  developing EAs, SDs, or other policies. It mandates that the TSA
                  Administrator, Deputy Administrator, or the Assistant Administrator
                  of OSO is responsible for determining when a RIPR working group
                  will review an issue and for assigning a RIPR team lead.

                  The team lead of RIPR is usually the Deputy Assistant Administrator
                  of OSO, OGS, or TSNM, and is authorized under the SOP to complete
                  a problem statement of the event that initiated the working group. The
                  team lead works with the Assistant Administrators to discuss and
                  select the team members.

                  In developing the policy, EA, or SD to implement, the RIPR working
                  group determines what countermeasure will be implemented to
                  mitigate the threat and provides its recommendations to the Senior
                  Leadership Team of TSA. Upon review and approval by the Senior
                  Leadership Team, the RIPR working group finalizes the documents
                  and distributes them to their respective Assistant Administrators.
                  Once the Assistant Administrators approve the package, all internal
                  and external stakeholders are briefed on the specific actions to be
                  implemented. OGS management officials are optimistic that the new
                  process will significantly reduce the amount of time needed to issue
                  future EAs.

                  Although the RIPR process was only implemented in July 2011, TSA
                  has since changed the process through the issuance of a Management
                  Directive. TSA Management Directive No. 2100.5, which covers all
                  security program amendments, including EAs, was signed by the TSA
                  Administrator in March 2012. It includes several new contributors to
                  the EA creation, review, and approval process. These contributors
                  include the Office of Security Operations, Office of Chief Counsel,
                  Office of Intelligence and Analysis, Office of Security Capabilities,
                  Office of Law Enforcement/Federal Air Marshal Service, and Office
                  of Policy Coordination and Intergovernmental Affairs. The directive
                  assigns primary oversight to the Office of Security Policy and Industry
                  Engagement (formerly known as TSNM), and secondary oversight to
                  OGS. However, the directive does not establish timeframes within
                  which each office must complete its actions with regard to the EA
                  drafting process.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 14
         Recommendation
                  We recommend that the TSA Administrator:

                  Recommendation #1: Establish and implement timeframes for
                  issuing Emergency Amendments, including deadlines for TSA offices
                  involved in reviewing and providing comments on them.


         Management Comments and OIG Analysis
                  Management Comments to Recommendation #1

                  TSA concurred with the recommendation. In its response, TSA
                  indicated that it has realigned its RIPR process in order to solidify
                  responsibility for policy, including the development of SDs and EAs,
                  within the newly created Office of Security Policy and Industry
                  Engagement (OSPIE). Additionally, TSA stated that the new process
                  is codified in Management Directive 2100.5, which was issued by the
                  TSA Administrator on March 15, 2012. Finally, TSA advised that the
                  new directive will be further supported by a standard operating
                  procedure that will specify timelines, roles, and responsibilities.

                  OIG Analysis

                  We concur with TSA's response. In its action plan, TSA should
                  provide a copy of the standard operating procedure developed to
                  support Management Directive 2100.5. We will close this
                  recommendation pending review and concurrence with this document.

                  This recommendation is Resolved - Open.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 1S
TSA Has Not Evaluated Passenger Screening Procedures at
All Preclearance Airports
         DHS operates customs preclearance services at 14 international airports. Title
         19 USC 1629 grants the Secretary, when authorized by treaty or executive
         agreement, the authority to station customs officers at foreign locations to
         examine people, cargo, and merchandise prior to their or its arrival in the
         United States.

         Customs and Border Protection (CBP) has primary responsibility for
         preclearance operations. At designated preclearance airports, CBP inspectors
         use customs procedures comparable to those conducted at U.S. ports of entry
         to clear passengers and their belongings for entry into the United States.
         TSA, through its Preclearance Aviation Security Operations Program, is
         responsible for assessing the host airport's passenger checkpoint screening to
         determine whether the foreign airport's screening procedures are comparable
         to aviation security standards for U.S. airports.

         TSA conducts comparability observations, or evaluations, of preclearance
         airports and documents results in preclearance evaluation reports.
         Observation teams led by an IPS manager from the OGS Technical Assistance
         Group conduct the preclearance comparability observations. In addition to
         IPS staff, comparability observation teams often include the TSAR who is
         responsible for the preclearance airport and a TSA expert in domestic
         screening procedures.

         For preclearance comparability observations, TSA teams evaluate the
         airport's passenger security screening procedures and the implementation of
         passenger checkpoint screening measures to assess comparability with U.S.
         standards for domestic screening. Teams analyze passenger, crew, and
         property screening; screening equipment; checkpoint design; and screener
         training and supervision to determine whether the airport is comparable to
         U.S. standards based on its observations.

         DHS preclearance services allow passengers who undergo CBP inspection
         and checkpoint screening at preclearance airports to deplane into the sterile
         area of a U.S. airport and continue domestic travel without undergoing further
         CBP or TSA screening. However, TSA still screens checked baggage from




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 16
         preclearance locations at the U.S. port of entry. Preclearance airports are
         located in Canada, Ireland, and the Caribbean and account for 16 percent of
         all international inbound traffic to the United States.

                  OGS Has Never Assessed Some Preclearance Locations and, Until
                  Recently, Did Not Have Written Guidance for Their Evaluation

                  The author of the letter alleged that OGS has been "very slow� in
                  addressing deficiencies at preclearance airports. The author did not
                  identify or explain the deficiencies.

                  We validated the author's allegation.




                  The evaluation process was slow for two reasons. First, memorandums
                  of cooperation between TSA and host governments recognizing
                  preclearance operations and cooperative efforts to enhance security
                  screening do not exist for all 14 preclearance locations.


                                                                    OGS management
                  officials advised us that efforts are underway to establish these
                  agreements, but could not tell us when these actions would be
                  completed.

                  Second, although OGS has been responsible for the preclearance
                  program since late 2007, headquarters was not managing the program
                  until the program transferred to IPS in 2010. Instead, individual
                  TSARs managed the preclearance process at airports within their areas
                  of operation. During this time, TSA did not have standard processes
                  and procedures for conducting comparability observations, or a
                  schedule for executing the assessments. Without established operating




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 17
                  procedures, a policy to define comparable security screening did not
                  exist. As a result, it is possible that TSA used inconsistent evaluation
                  standards and metrics to determine whether screening procedures at
                  preclearance locations are comparable to U.S. standards.

                  However, OGS has made programmatic changes bringing greater
                  focus to the program. In December 2010, IPS assumed responsibility
                  for the program. Since then, OGS has taken several steps to
                  strengthen the program, including reinitiating preclearance
                  comparability assessments and establishing an SOP. Table 1 shows
                  the dates of the most recent assessments and the schedule for
                  upcoming assessments.

                  To standardize the program, OGS issued an Operations Directive that
                  provides a foundation for the program and delineates a four phase
                  process for evaluating Preclearance Aviation Security Operations
                  Program locations. Under the directive, OGS will conduct
                  preclearance comparability evaluations visits annually. The process
                  includes a baseline visit to assess comparability to domestic screening
                  standards, followed by period of remediation in which security gaps
                  are resolved. Should remediation of a security concern be required, an
                  airport will be reevaluated to determine the status of any comparability
                  gap. The operations directive further clarifies the roles and
                  responsibilities of TSA program offices outside of OGS that are
                  involved in the Preclearance Aviation Security Operations Program.
                  OCC is responsible for negotiating memorandums of cooperation for
                  each preclearance location, including any technical annexes, while
                  OSO assists in the development of evaluation criteria, training
                  activities, and preclearance evaluations.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 1S
                  Table 1: Preclearance Locations, Most Recent Evaluation, and
                  Next Scheduled Evaluation
                                                                      Most       Next
                              Airport     Airport                    Recent    Scheduled
                   Country     Code        Name           City     Evaluation Evaluation




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 19
                  In addition to the operational directive, OGS drafted a comprehensive
                  SOP which provides specific operational steps and guidance for
                  administering the Preclearance Aviation Security Operations Program.
                  The document includes program goals and objectives, defined roles
                  and responsibilities, a description of the program's process and
                  procedures for conducting comparability assessments, and strategies
                  for mitigating security risks. In developing this document, OGS has
                  conducted several site visits to test and assess the SOP's methodology.

                  In November 2011, OGS began piloting a new reporting format and
                  scoring system for Preclearance evaluation reports. The results of the
                  evaluation, a comparability score, and recommended corrective
                  actions for any identified gaps will be presented in a Preclearance
                  Observation Summary Report. Evaluation teams document their
                  observations of 41 screening categories in a detailed Preclearance
                  Comparability Analysis. Preclearance airports must attain a
                  Preclearance Comparability Analysis score that meets or exceeds a
                  certain threshold to achieve comparable status.

         Recommendation
                  We recommend that the TSA Administrator:

                  Recommendation #2: Require rescreening of all passengers arriving
                  at U.S. ports of entry from preclearance airports that fail to achieve
                  comparable status.

         Management Comments and OIG Analysis
                  Management Comments to Recommendation #2

                  TSA concurred with the recommendation. In its response, TSA stated
                  that the preclearance program established within OGS will provide
                  ongoing evaluation of the security operations at preclearance airports
                  to ensure that they are comparable with U.S. standards. Where these
                  procedures are found to be deficient, TSA will work with the
                  appropriate authorities to achieve comparability so that operations may
                  continue and that passengers arriving in the United States from
                  preclearance airports can seamlessly transfer to flights.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 20
                  OIG Analysis

                  Although TSA indicated concurrence with the recommendation, its
                  response indicates only partial concurrence. TSA stated that in cases
                  where a preclearance airport has significant areas of noncomparability
                  or where the risk is too great, TSA may require the rescreening of
                  passengers and property arriving in the United States from that
                  location until such time as the appropriate authority implements
                  adequate security measures to ensure comparability with U.S.
                  standards. TSA explained that it has several options available to
                  address preclearance flights from locations where deficiencies exist.
                  In addition to rescreening passengers and baggage, other options
                  include issuance of a location specific SD and/or EA, and/or a
                  reevaluation of the preclearance program at that location. While we
                  appreciate that TSA has other options available to it, we believe that
                  TSA should issue guidance that makes it clear that, at a minimum,
                  passengers and property arriving from any preclearance airport that
                  does not maintain comparability with U.S. standards will be
                  rescreened. We will close this recommendation pending receipt and
                  review of this guidance.

                  This recommendation is Resolved - Open

Creation of the Regional Director Position Raised Concerns
         The author of the letter alleged that the creation of the regional director
         position added an unnecessary layer of bureaucracy and is a waste of
         government funds. The author asserted that the TSARs are K-band
         employees who should not require close supervision by a regional director
         and should be able to work effectively with foreign governments without the
         presence of a regional director. The author alleged that the costs of sending
         the regional directors and their families overseas, overseas education for their
         children, and acquiring overseas real estate were a waste of government
         funds. One of the positions was in Frankfurt, Germany, and the other was in
         the Republic of Singapore.

         OGS provided ample justification for creating the positions, which were
         vetted by TSA's Executive Resources Council. The Executive Resources




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                           Page 21

         Council provides guidance and recommendations to the Deputy Administrator
         and Administrator regarding recruitment and selection of individuals at the
         senior-executive level. Because we determined that there was ample
         justification for creating the positions, we were less concerned with the costs
         involved in their deployment. The costs incurred are the same as would be
         expected for any overseas assignment of OGS personnel.

         OGS management's communication regarding the roles and responsibilities of
         the position, as well as other actions, were legitimate reasons for the author
         and others to question the need for the positions and whether OGS might have
         created these positions for the individuals now occupying them. Further,
         OGS management provided conflicting descriptions of the regional director's
         roles and responsibilities and did not implement the position as originally
         approved by the Executive Resources Council. However, OGS did not
         circumvent the hiring process or take improper actions to select either the
         Frankfurt or Singapore regional directors.

         The allegation called attention to an area of ongoing tension within OGS.
         Management believes that executive-level experience is required to represent
         TSA's interests when dealing with foreign governments or a crisis, but
         support for this approach is not unanimous within OGS. The decision to
         create and deploy regional directors caused mixed reactions by OGS staff.
         We spoke with 29 K-band employees about the new regional director
         positions. K-band employees in OGS tend to be Regional Managers located
         at TSA headquarters, Regional Operations Center Managers, and TSARs.
         They are the employees who are most likely to have direct interaction with the
         regional directors. Fourteen K-band employees said that they either support
         the establishment of regional director positions or believe that the position has
         the potential to enhance OGS operations. Two employees supported the
         establishment of a regional director in Europe, but felt that individual
         directors were not necessary for other regions.

         Eight employees did not support the new position. They gave a variety of
         reasons. For example, one employee questioned the need for a field executive
         to direct TSA operations during crisis situations, explaining that incidents of a
         scale requiring crisis response occur infrequently. Another employee believed
         that the implementation of regional directors duplicates efforts already
         undertaken by TSARs, and three TSARs believed that the money to fund the
         regional director position would be better spent on hiring additional inspectors




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 22
         or support staff at lower pay bands. Five K-band employees offered no
         opinion concerning the positions.

         Some of the 29 K-band staff cited a need for better communication from OGS
         management about justifying, establishing, and deploying new regional
         directors. Eight K-band employees said they understood the role of the
         regional director and how the position fit into the OGS organizational
         structure. Eight others said they did not clearly understand the role and
         responsibilities of the regional director and how the new directors fit into the
         OGS organizational structure, with three of these employees saying they were
         unclear about how the reporting structure would change.

                  OGS's Justification for the Regional Director Position

                  Regional directors are executives who oversee international field
                  operations and manage interagency relationships to mitigate
                  international transportation security vulnerabilities. OGS created the
                  position to provide TSA with executive-level representation for the
                  Assistant Administrator in meetings and negotiations with foreign
                  governments. TSA initially authorized the international deployment
                  of two regional directors in December 2010.

                  First, regional directors serve as advisors and experts to foreign
                  officials to consult on security procedures, share best practices, and
                  identify common policies to minimize duplication of effort. Second,
                  they are charged with integrating and unifying the efforts of the
                  various OGS operational directorates. OGS management officials
                  described this as the ability to cut across directorate lines in order to
                  advance a more consistent international strategy. Third, they will lead
                  OGS efforts during a crisis and incident response situations within
                  their area of operation. Because of time differences between TSA
                  headquarters and the various international locations where TSA
                  operates, regional directors have a great deal of autonomy and are
                  expected to exercise independent judgment while making time-
                  sensitive decisions for the agency.

                  OGS originally requested approval of four regional director positions
                  to cover Asia/Pacific, Europe, Western Hemisphere, and Africa/Middle




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 23
                          East. The Executive Resources Council authorized only the
                          Asia/Pacific (Singapore) and Europe (Frankfurt) positions.

                          OGS Management Has Provided Conflicting Descriptions of the
                          Regional Director's Roles and Responsibilities

                          Contributing to the uncertainty of the need for new regional director
                          positions were the conflicting descriptions that OGS management
                          provided with regard to their roles and responsibilities.

                          On December 22, 2010, the OGS Assistant Administrator presented a
                          request to the Executive Resources Council for two regional director
                          positions. The Executive Resources Council approved regional
                          director positions for Asia/Pacific and Europe, and directed OGS to
                          advertise the positions and evaluate funding for them.

                          The approved December 2010 Executive Resources Council package
                          states that regional directors will oversee all tactical operations within
                          their area of responsibility and have direct supervisory authority over
                          TSARs and Regional Managers. The package further states that
                          "reporting directly to the Director of IO, the regional director will
                          receive guidance on outreach and engagement priorities for TSA and
                          OGS that will then be implemented directly with high level
                          government counterparts in the field.�

                          However, a March 8, 2011, action memorandum from the OGS
                          Assistant Administrator to Administrator Pistole describes the regional
                          director position differently. The action memo, which requested
                          approval to forward a National Security Decision Directive (NSDD)-
                          38 request to the DHS Office of International Affairs, stated that
                          regional directors are responsible for oversight of each Regional
                          Operations Center, TSAR, and IIR within their area of responsibility. 4
                          The request did not describe the regional director's supervisory
                          authority over TSARs and Regional Managers, as the Executive
                          Resources Council package did. The same oversight description is
                          written in a subsequent undated action memo from Administrator

4
 NSDD-38 gives the Chief of Mission control of the size, composition, and mandate of overseas full-time
mission staffing for all U.S. Government agencies. An NSDD-38 request is required to initiate DHS staffing
changes at overseas diplomatic posts.




        Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                   Page 24

                  Pistole to DHS Deputy Secretary Jane Lute requesting that DHS
                  initiate the NSDD-38 process.

                  Then, in a March 15, 2011, action memorandum from the Assistant
                  Secretary for Policy to Secretary Janet Napolitano, the regional
                  director position is described differently again. The memorandum
                  requests authorization for the Office of Policy to initiate the formal
                  NSDD-38 process with the Department of State, thus allowing TSA to
                  post Senior Executive Service-level regional directors in Singapore
                  and Frankfurt. Similar to the preceding action memos, the document
                  states that the regional directors will be responsible for oversight of
                  each Regional Operations Center, the TSAR, and the IIR within their
                  area of responsibility, but does not mention supervisory responsibilities
                  over TSARs. However, this action memo states that the regional
                  director "would be the supervisor of all TSA personnel at post,�
                  meaning "nine staff in Singapore and 33 staff in Frankfurt.� This
                  description of the regional director position is different from all the
                  previous documents. On March 30, 2011, Secretary Napolitano
                  approved the request for action.

                  Finally, TSA's formal NSDD-38 applications for Singapore and
                  Frankfurt, which were approved by the Department of State, says in
                  the "Justification for Requested Position� section that regional
                  directors will be responsible for administrative and technical oversight
                  of each Regional Operations Center, TSAR, and IIR in their respective
                  areas of responsibility. The request does not call for supervisory
                  authority over OGS employees, as had previously been approved by
                  the Secretary of DHS.

                  The regional director position has not been implemented as originally
                  approved by the Executive Resources Council. Regional directors
                  have no supervisory responsibilities over OGS employees. When
                  OGS leaders announced the regional director position, they explained
                  that the reporting structure for staff in GC and IO would not change.
                  TSARs, Regional Managers, and the IO Director have maintained
                  their reporting relationship, although TSARs and Regional Managers
                  have been instructed to coordinate their efforts and share pertinent
                  information with the regional director so they can continue to
                  implement TSA's strategic direction within their region. Furthermore,




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 2S
                  the Singapore and Frankfurt regional directors do not report to the
                  Director of IO as approved by the Executive Resources Council.
                  Instead, the regional director position reports directly to the Assistant
                  Administrator. The Singapore regional director told us that while he
                  partners with the Director for IO, he has always operated under the
                  assumption that he would report directly to the Assistant Administrator.
                  The Singapore regional director added that the original justification for
                  the regional director position offered two possible reporting structures.
                  However, these documents did not mention alternate reporting
                  structures in the justification package approved by the Executive
                  Resources Council.

                  The Selection of One Regional Director Led to Perceptions That
                  OGS Created the Position for Him

                  Prior to the Executive Resources Council's approval of the current
                  regional director positions, OGS had proposed to the council a new
                  TSA Senior Executive Service position called an International
                  Transportation Security Executive to be based in Sydney, Australia.
                  On April 1, 2010, OGS asked the Executive Resources Council
                  whether it could create this position and sought approval for a specific
                  candidate to fill it. The Executive Resources Council postponed a
                  decision pending further discussion. We could find no record that the
                  establishment of this position received any further consideration.

                  However, the fact that OGS had considered a candidate for placement
                  in an international OGS position before the position existed raised
                  legitimate concerns. We spoke with 46 OGS employees who said they
                  were aware of instances where they believed a position was created for
                  a particular individual. Nine employees specifically cited the creation
                  of the regional director as an example.

                  The manner in which OGS selected the former OGS Deputy Assistant
                  Administrator for the Singapore regional director position was not
                  improper. He applied for the position through a vacancy announcement
                  posted on USAJobs and was ultimately determined to be the best
                  qualified candidate. The Executive Resources Council reviewed and
                  approved his selection at its April 14, 2011 meeting.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 26
                  We found nothing improper in the selection of the former Assistant
                  Administrator of OSO for the regional director position in Frankfurt.
                  The Executive Resources Council also approved his selection at its
                  April 14, 2011, meeting.


TSAR Positions Are Properly Placed
         The author of the letter alleged that the random placement of TSAR positions
         has resulted in waste and inefficiency. The author suggested that OGS has too
         many (three) TSARs in the Caribbean because it is not a high threat level
         area, and too many in Europe because the current OGS leadership is very
         Eurocentric. The author believes that OGS should spend more "energy�
         working with developing countries. Several employees also expressed to us
         their concerns about how OGS selects TSARs, their qualifications, and, in
         some cases, where they are located.

         Based on our review of TSAR positions in the Caribbean and Europe, and
         their areas of responsibility, we determined that management's rationale for
         placing TSARs globally is sound.

                  Overview of the TSAR Position

                  The current TSAR position came out of a program established by the
                  Federal Aviation Administration as a result of the Aviation Security
                  Improvement Act of 1990 (P.L. 101-604), which mandated that the
                  Federal Aviation Administration take initiatives to enhance
                  international aviation security. As a result, Civil Aviation Security
                  Liaison Officers were created and posted at 20 different locations
                  overseas. The first one was deployed to the American Embassy in
                  London and was involved in ICAO conferences and assisted with
                  furthering U.S. security initiatives with the United Kingdom's airports
                  and air carriers. This initial engagement with foreign aviation security
                  officials served as a significant precedent for future initiatives between
                  the United States and partnering governments.

                  The current TSARs are K-band employees who rely on their
                  knowledge and experiences in diplomacy and aviation security to
                  negotiate with foreign countries. They help TSA and DHS carry out




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 27
                  critical U.S. initiatives regarding aviation security. TSARs work to
                  advance TSA objectives overseas, while enhancing partnerships with
                  foreign governments. They must be politically savvy and able to
                  negotiate with high-level foreign government officials, develop and
                  maintain partnerships in the aviation security community, and provide
                  quick resolutions in crisis situations. The TSAR serves as the
                  coordinator for TSA and DHS teams regarding transportation-related
                  security incidents that involve U.S. interests. Within each area of
                  responsibility, the TSAR must also develop engagement strategies for
                  the countries, as well as prepare budgetary requests to fund program
                  requirements.

                  TSARs Are Selected Based on a Standardized Process That
                  Includes TSA Senior Management

                  OGS considers many different factors when deciding whether a
                  candidate is qualified to be a TSAR. Prospective candidates must
                  have knowledge of international transportation security standards, 3 to
                  5 years of TSA and international experience, as well as 1 year of
                  specialized experience at the J-band level. TSARs are deployed to
                  countries with various economic and cultural standards, so it is also
                  important for prospective TSARs to be open and understanding of the
                  diverse cultures that may be present in the area of responsibility to
                  which they are assigned. Finally, the TSAR must be able to
                  communicate diplomatically, both orally and in writing, and to
                  maintain poise in stressful situations.

                  Once OGS determines that a prospective TSAR is qualified, the
                  candidate undergoes a rigorous interview and testing process. The
                  process begins with a selection panel consisting of the Regional
                  Managers within IO, who review resumes and extend invitations to top
                  candidates for interviews. The candidates must also complete an essay
                  question within 25 minutes, and the scores from the interview and
                  writing sample are combined for the candidate's final ranking. These
                  scores are provided to the IO Director along with the panel's
                  recommendations. The IO Director identifies and recommends the
                  candidate to the Deputy Assistant Administrator and Assistant
                  Administrator. Upon their review and approval, the Executive




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 2S
                  Resources Council approves the selection of a candidate. OGS then
                  extends a formal offer to the candidate.

                  Our review of the background and qualifications of the current TSARs
                  indicated that they appear to be well-qualified for their positions.
                  Most of the current TSARs have significant overseas experience.
                  Additionally, most have significant prior work experience in either
                  TSA components such as Federal Air Marshal Service, OCC, or OSO,
                  or other federal agencies such as the Federal Aviation Administration,
                  National Aeronautics and Space Administration, or the Office of
                  Personnel Management. Several TSARs also have aviation security
                  and law enforcement backgrounds. All of the TSARs underwent the
                  aforementioned selection process and were approved by the Executive
                  Resources Council. We found no evidence that OGS selected any
                  TSARs solely on the basis of their prior acquaintance with the former
                  Deputy Assistant Administrator or Assistant Administrator.

                  TSARs Are Deployed Throughout the World

                  TSA deploys TSARs worldwide. With the exception of three TSARs
                  who are co-located at the Miami Regional Operations Center, TSARs
                  are stationed at diplomatic posts and are considered a part of the
                  diplomatic staff of the embassy to which they are assigned. TSARs
                  are assigned a geographic area of responsibility that usually includes
                  several countries. Appendix D provides the current TSAR locations
                  and their areas of responsibility.

                  OGS periodically reviews every area of responsibility to ensure that
                  the workload of each TSAR is balanced with that of other TSARs in
                  the region. Among the factors that can cause a change to a TSAR's
                  area of responsibility is a change in the volume of U.S.-bound flights
                  from countries within that area or a decision to create a new TSAR
                  position. For example, OGS might add Turkey to TSAR Madrid's
                  area of responsibility because it is an emerging market that requires
                  additional attention. In fact, the IO Director told us that OGS is
                  currently considering a realignment of all TSARs in Europe. OGS is
                  also considering the creation of a TSAR position in India because of
                  U.S. plans to engage the Indian Government. Other factors that might
                  lead OGS to realign areas of responsibility include a specific TSAR's




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 29
                           unique language skills or cultural ties that may be more relevant to one
                           country than another.

                           While we were conducting our fieldwork, OGS requested the approval
                           of a new TSAR position that would have responsibility for Oceania.
                           We reviewed OGS' analysis of the need for the position, the
                           justification it provided to the Executive Resources Council with
                           regard to the position, and the council's subsequent approval of the
                           position and the candidate. We found no discrepancies or causes for
                           concern. The actual deployment of the TSAR Oceania position is on
                           hold pending the availability of funding.

                           OGS Is Reviewing TSARs Deployed to the Caribbean

                           The author alleged that having three TSARs for the Caribbean is
                           wasteful and inefficient because the Caribbean is not a high-level
                           threat area.

                           Presently, TSAR Nassau, TSAR Caribbean North, and TSAR
                           Caribbean South are responsible for liaising with foreign governments
                           in the Caribbean region. Additionally, TSAR Central America is
                           responsible for one Caribbean country, the Dominican Republic.
                           Among these TSARs, TSAR Nassau is responsible for eight countries
                           with 22 last points of departure airports to the United States, while
                           TSAR Caribbean South is responsible for 10 countries with 13 last
                           points of departure airports. 5 TSAR Caribbean North handles 12
                           countries with eight last points of departure airports, and the
                           Dominican Republic has five last points of departure airports.

                           OGS is considering realigning the Caribbean areas of responsibility
                           again and deploying only two TSARs to the region, as in the past. The
                           IO Director told us that prior to October 2010, only two TSARs had
                           been responsible for the Caribbean region. When OGS determined
                           that there was too much work for them, OGS realigned the area of
                           responsibility and added another TSAR. Since deploying the third
                           TSAR, it has become increasingly apparent that dividing the


5
 Last points of departure airports are overseas airports from which U.S. and foreign air carriers operate flights
directly into the United States.




        Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                     Page 30

                  Caribbean into three areas of responsibility may have been ill-
                  conceived because some of the TSARs are underutilized. OGS
                  continues to review workloads and may consider adjustments as
                  warranted.

                  Appendix D shows the current areas of responsibility for the three
                  Caribbean TSARs and TSAR Central America.


The Effectiveness of Capacity Development Programs Is Difficult To
Measure
         The author of the letter wrote that OGS' Capacity Development efforts are
         ineffective and wasteful, particularly because of programs like ASSIST.
         ASSIST was created to help developing countries enhance their aviation
         security capacity and effectively build sustainable long-term programs. The
         plan was to work with local alliances to conduct assessments, develop
         aviation security programs and procedures, and share best practices with
         neighboring countries. The author alleged that thousands of dollars have been
         spent on the program, which has done very little other than offer basic
         screener training.

         We were not able to substantiate this allegation, mostly because it is very
         difficult to quantify the effectiveness of the training that OGS provides.

                  OGS's Capacity Development Branch Provides Training on a
                  Variety of Technical Subjects

                  In 2007, OGS established the CDB from elements of the former
                  international training component of the OSO's Security Enforcement
                  Training Academy. CDB's task is to develop competencies in global
                  aviation security standards and practices among security staff from
                  international partner organizations. CDB carries out training not only
                  for TSA, but also in partnership with ICAO, the Department of State's
                  Anti-Terrorism Assistance Program, the Organization of American
                  States, and the Department of Transportation's Safe Skies for Africa
                  Program.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 31
                  In addition to individual training missions and assignments, CDB
                  manages the ASSIST program. ASSIST, established in FY 2009,
                  conducts structured, long-term aviation security development
                  assistance for countries that have failed to meet international aviation
                  security standards set by ICAO. The program's goal is to enable
                  nations to maintain sustained aviation security capabilities by
                  conducting needs assessments, executing training programs, and
                  developing sustainment practices. ASSIST engagements generally last
                  12 to 18 months.

                  OGS spent $798,016 on capacity development programs between
                  FY 2009 and FY 2011 (see table 2).

                  Table 2: OGS Funding for Capacity Development
                          Fiscal Year            Total Amount Spent
                             2009                      $388,777
                             2010                      $243,646
                             2011                      $165,593
                             Total                     $798,016

                  A number of external organizations, including the Organization of
                  American States and Safe Skies for Africa, provide financial
                  assistance to help cover travel and per diem expenses. For example,
                  the Organization of American States provided $83,677 in FY 2010 and
                  $102,470 in FY 2011, and has committed to provide funds for
                  FY 2012. Safe Skies for Africa has committed $1.2 million in
                  FY 2012 and FY 2013 for regional training in Safe Skies countries.
                  However, the implementation plan for these funds is still being
                  developed. Because they are providing funding, external
                  organizations have a great deal of influence on what training is
                  provided and to what countries it is provided.

                  Although the anonymous author correctly pointed out that CDB has
                  spent thousands of dollars on this program, the author's assertion that
                  capacity development programs provide little more than basic screener
                  training is inaccurate. CDB coordinates with TSARs, foreign
                  counterparts, and international organizations to identify security
                  development opportunities and implement training programs. CDB
                  instructors, along with subject matter experts from other TSA offices,




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 32
                  conduct training sessions on a variety of technical subjects, including
                  inspector skills, screening techniques, quality control, incident
                  management, security instructor skills, and the development of
                  national programs.

                  The distribution of funds for countries receiving capacity development
                  assistance is determined by analyzing the number of last points of
                  departure, annual flight volume to the United States, threat and
                  vulnerability ratings, and training requests made by TSARs and host
                  countries. After evaluating the different factors and determining a
                  final rating, CDB prioritizes the locations and determines what
                  percentage of its funds will be used to address security vulnerabilities in
                  each country. Although CDB also aims to train underdeveloped
                  countries to increase their security posture, these countries do not have
                  a large volume of passengers traveling to the United States.


Perceptions of Discrimination, Favoritism, and the Abuse of Power
Do Exist
         The author of the letter alleged that the perception in OGS is that the Assistant
         Administrator favors young and attractive females and discriminates against
         older employees, especially women and minorities. The author provided no
         details concerning specific instances of discrimination. The author alleged
         that OGS gives the majority of awards and promotions to younger employees
         and those who work in the front office, adding that this applies to training and
         travel opportunities as well. The author did not provide specific examples.
         Additionally, the author asserted that favoritism is most apparent in OGS's
         hiring practices, and that there is no fairness or transparency. The author
         asserted that the best qualification anyone could have when wanting to work
         for OGS was to be a friend of the Assistant Administrator or the former
         Deputy Assistant Administrator. Finally, the author claimed that abuse of
         power in OGS is egregious and that OGS leadership manages through fear
         and intimidation.

         While we could not substantiate the allegations, there is a perception among
         some OGS employees that some or all of these issues exist. Several
         employees said that they had personally experienced some of these issues or
         knew of someone who had.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 33
                  Discrimination, Retaliation, and Favoritism

                  Discrimination and retaliation are commonly used terms that involve
                  complex areas of law. Each requires specific elements of evidence to
                  meet its legal threshold. Federal employees and job applicants are
                  protected against discrimination in employment on the basis of race,
                  color, religion, sex (including pregnancy), sexual orientation, national
                  origin, age (40 or older), or disability. In addition, federal employers
                  are required to provide a reasonable accommodation for individuals
                  with disabilities and for religious purposes.

                  Employees are protected against retaliation for two categories of
                  activities: whistleblowing and exercising their right to engage in
                  certain protected activities. The whistleblower category protects
                  employees, former employees, and applicants for employment against
                  reprisal for lawfully disclosing information they reasonably believe is
                  evidence of a violation of a law, rule, or regulation in the workplace or
                  by federal employees. It also protects against reprisal for disclosing
                  gross mismanagement, gross waste of funds, abuse of authority, or
                  substantial or specific danger to public health and safety. The second
                  category protects employees from reprisal for exercising their right to
                  engage in certain protected activities, including the following:

                      •	 Filing an appeal, complaint, or grievance;
                      •	 Testifying for or assisting another in exercising such a right;
                      •	 Cooperating with or disclosing information to the Special
                         Counsel or to an Inspector General; or
                      •	 Refusing to obey an order that would require the individual to
                         violate the law.

                  Sometimes employees believe that supervisors have discriminated or
                  retaliated against them by giving preferential treatment to other
                  employees based on biases or personal relationships. Although an act
                  of favoritism is not the same as discrimination or retaliation,
                  employees are protected against favoritism, and employment decisions
                  must be based on objective factors. However, favoritism can be
                  difficult to identify because of insufficient evidence. An employee
                  might interpret as favoritism what in reality could be fair, merit-based




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 34
                  behavior by a supervisor in a given instance. For example,
                  differentiating among employees based strictly on performance would
                  not be favoritism. Employees enter into positions with different skills
                  and prior work experience and may be given assignments of differing
                  complexities. One employee might have the expertise to complete an
                  assignment with minimal guidance from a supervisor, whereas another
                  employee might need more coaching or supervision. It would not be
                  favoritism to treat employees differently under these circumstances;
                  rather, it would be good management. However, if a supervisor gave
                  an assignment to one employee over another because of a personal
                  friendship with that employee, rather than basing the assignment on
                  legitimate business factors such as expertise, workload, or
                  performance, that could be favoritism.

                  Discrimination and Inequitable Treatment

                  We could not confirm that the Assistant Administrator favors young
                  and attractive females and discriminates against older employees,
                  particularly women and minorities. However, 18 of 144 employees
                  interviewed, or 13 percent, felt directly discriminated against. Of the
                  18 employees, 1 said that the discrimination was based on race; 2 said
                  that it was based on their prior employment; and 5 said that they had
                  been discriminated against when they were not given proper
                  consideration for in-position increases, promotions, or selection to
                  positions for which they had applied. The remaining employees chose
                  not to provide additional explanation.

                  A similar number of employees reported that they were aware of acts
                  of discrimination or inequitable treatment. Approximately 20
                  employees interviewed, or 14 percent, indicated that they were aware
                  of various instances of discrimination or inequitable treatment.
                  Among these 20 employees, 4 believed that promotions and selections
                  to positions were handled in a discriminatory manner.

                  We reviewed demographic data for OGS. The percentage of females
                  has grown 11 percent since 2009; from 29 percent in 2009, to 36
                  percent in 2010, and to 40 percent in 2011. On the surface, these data
                  appear to support the author's claim. However, our review supported
                  the following assessments:




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 3S
                      •	 We did not identify any anomalies in the hiring process that
                         would have indicated a preference for hiring younger
                         employees or females;

                      •	 The administration of awards, promotions and in-position
                         increases, and training did not appear to favor younger
                         employees or females;

                      •	 There were no determinations made against the agency
                         concerning the hiring of younger employees or females; and

                      •	 Our comparison of OGS demographics to that of TSA indicated
                         that the average age of OGS employees is still well above the
                         average age of TSA employees. The percentage of females in
                         TSA has remained around 37 percent during the same period,
                         which is consistent with the percentages of females employed
                         in OGS.

                  Awards, Promotions and In-Position Increases, Training, and
                  Hiring

                  The author of the letter also alleged that OGS gives awards and
                  promotions to younger employees and those who work in the front
                  office. The author alleged that favoritism toward young and female
                  staff is a major factor in the selection of employees for training
                  opportunities. For example, some employees are approved for training
                  that costs up to $10,000, while other employees struggle getting
                  approval for courses that cost $500. Finally, the author alleged that
                  favoritism is particularly prevalent in OGS' hiring practices, and
                  asserted that OGS chose individuals for positions who did not apply
                  formally because they knew the Assistant Administrator or Deputy
                  Assistant Administrator. Several employees also perceive that
                  favoritism exists in awards, promotions and in-position increases,
                  training, and hiring.

                  We did not identify any obvious discrepancies or evidence of
                  favoritism regarding OGS' administration of awards, promotions and
                  in-position increases, training, or hiring processes. The results of our




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 36
                  review were consistent with those of TSA Office of Inspection's
                  March 2011 comprehensive review of the same records.

                  Awards

                  Awards such as certificates, time off, or cash bonuses are given in
                  recognition of an employee's work contributions. Eighty-two or 57
                  percent of the 144 employees we interviewed said that they received at
                  least one award since joining OGS. Still, some employees felt that
                  these awards were not administered equitably. Of the 144 employees,
                  14 (10 percent) said that they were aware of employees who, in their
                  opinion, received awards that they did not deserve. Of these
                  employees, two said that those who work in the front office of OGS
                  should not have received awards. Another employee alleged knowing
                  of TSARs with no aviation backgrounds who received awards, and
                  two others said the management team at Regional Operations Centers
                  received awards despite not completing their duties. We were not
                  provided sufficient information to further review these matters.

                  OGS gave cash awards to 161 employees in FY 2010 and 155
                  employees in FY 2011, and distributed the awards throughout the
                  organization (see table 3):

                  Table 3: Distribution of Cash Awards for FY 2010 and FY 2011.
                       Location                 Number of Employees
                                            FY 2010             FY 2011
                     Headquarters              64                 70
                         Miami                 18                 16
                   Dallas-Fort Worth           16                 17
                     Los Angeles               5                   4
                       Frankfurt               12                 15
                       Singapore                5                  5
                         TSAR                  22                 20
                          IIR                   8                  8
                          N/A                  11                  0
                  N/A represents employees who were on temporary detail to OGS from other TSA
                  offices. This category is unique to the FY 2010 data provided to us by OGS.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 37
                  OGS appeared to administer other types of awards in a similar manner.
                  According to the data provided by TSA Office of Human Capital,
                  OGS distributed time-off, monetary, and nonmonetary awards
                  throughout the organization to all races and genders for fiscal years
                  2009, 2010, and 2011 (see table 4). The table accounts for all awards
                  administered in OGS from FY 2009 through 2011. There is the
                  possibility of multiple awards given to the same individuals.

                  Table 4: OGS Awards for FYs 2009-2011
                   Categories                            FY                      FY        FY
                                                        2009                    2010      2011
                   Gender     Male                       159                     227       134
                              Female                     87                      136       99
                   Ethnicity Asian, American Indian, or
                              Alaska Native              17                      29        18
                              Black or African American   39                     48        36
                              Hispanic/Latino            44                      54        50
                              White                     146                     232       129
                   Average Age                          46.6                    45.9      44.0
                   Total Number of Awards                246                    363       233

                  Promotions and In-Position Increases

                  An in-position increase is a raise to an employee's basic pay rate, with
                  no change in position or pay band. OGS awards in-position increases
                  to its top-performing employees. With regard to whether OGS
                  management exhibited favoritism in promotions or in-position
                  increases, 61 out of 144 employees interviewed, or 42 percent,
                  indicated that they have received either a promotion or an in-position
                  increase since joining OGS.

                  Twenty-one employees (15 percent) said that employees received
                  promotions that, in their opinion, were not justified. Of those 21
                  employees, 5 said that OGS was promoting unqualified individuals.
                  One employee said that an employee's resume was altered after
                  submitting it in order to qualify for a position. Five claimed that OGS
                  had not properly selected TSARs and awarded in-position increases to
                  TSARs who did not deserve them.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 3S
                  We analyzed promotions data for OGS for FYs 2009, 2010, and 2011
                  (see table 5). Although the data-particularly that for FY 2010-
                  appeared to indicate some inequity in the promotions, our review of
                  the records revealed no indications that particular groups of employees
                  were favored.

                  Table S: OGS Promotions for FYs 2009-2011
                   Categories                             FY                        FY       FY
                                                         2009                      2010     2011
                   Gender     Male                          7                        8        9
                              Female                        6                        7        2
                   Ethnicity American Indian or Alaska
                              Native                        0                        0        0
                              Asian                         2                        0        0
                              Black or African American     2                        0        4
                              Hispanic/Latino               2                        1        3
                              White                        7                        14       4
                   Average Age                            42.3                     41.2     43.3
                   Total Number of Promotions              13                       15       11

                  We also analyzed the in-position increases for FY 2010 and FY 2011.
                  OGS awarded increases to 40 employees in FY 2010 and 52
                  employees in FY 2011. Like awards, OGS allocated in-position
                  increases throughout the organization (see table 6). When granting in-
                  position increases, managers consider performance appraisal scores
                  and the date their last increase was awarded. OGS utilized this
                  criterion in determining in-position increases for FY 2011.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 39
                  Table 6: Distribution of In-position Increases for FY 2010 and
                  FY 2011
                       Location                  Number of Employees
                                             FY 2010               FY 2011
                     Headquarters               18                    23
                         Miami                   6                     7
                   Dallas-Fort Worth             3                     2
                     Los Angeles                 2                     1
                       Frankfurt                 5                     6
                       Singapore                 1                     3
                         TSAR                    3                     9
                          IIR                    2                     1

                  To determine whether OGS was awarding promotions and in-position
                  increases according to the applicable TSA Management Directives, we
                  reviewed selected administrative and personnel records. We
                  determined that OGS followed procedures, which includes a
                  promotion board, with regard to promotions. The promotion board's
                  records showed that each applicant was asked standard questions and
                  that the applicant's responses were scored. Of the cases we reviewed,
                  OGS selected the highest rated applicant. In addition, when personnel
                  are promoted to supervisory positions, TSA's Office of Human Capital
                  must approve the selection.

                  Training

                  The author alleged that management favors young and attractive
                  female staff when selecting employees for training opportunities. The
                  author also alleged that while some employees are approved for
                  training that costs as much as $10,000, other employees struggle for
                  permission to attend training courses that cost $500. The author did
                  not identify any employees management has allegedly favored when
                  approving training, or specific training opportunities that it denied to
                  certain individuals. Twenty-five of 144 employees (17 percent) we
                  interviewed did not believe that OGS offered training opportunities
                  equitably. Of the 25 employees, 5 inspectors said that they did not
                  feel that management afforded their Regional Operations Center the
                  same training opportunities as other OGS offices. Four employees
                  said that OGS management permitted certain employees to attend




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 40
                          specialized technical training courses that were not relevant to their
                          current position and duties. Other employees did not provide
                          explanations of their responses.

                          Without knowing which OGS employees expressed an interest in
                          training but were denied, and for which training, it is difficult to assess
                          the extent to which management may have favored individuals when
                          approving training. Very few employees have attended training
                          costing $10,000 (see table 7). In addition, training records do not
                          support the allegation that management favors females when
                          approving training. However, we learned of situations that might have
                          provided the basis for the allegation. In one instance, management
                          approved training for one female and one male employee at a cost of
                          almost $8,000 each, but the training was canceled and OGS did not
                          incur any costs. We also noted that employees in two Regional
                          Operations Centers had not attended external training in recent years.
                          Finally, 76 percent, or 110, of the 144 employees we interviewed said
                          OGS administers training equitably. For these reasons, we did not
                          conclude that management was favoring particular employees.

                          According to OGS' training records for FYs 2010, 2011, and the first
                          quarter of FY 2012, only TSARs have attended training costing
                          $10,000. 6 In FY 2010, nine TSARs attended the mandatory TSAR
                          Training Academy at a cost of $9,980 each. In addition, two of these
                          TSARs attended security training at the Department of State's Foreign
                          Service Institute at a cost of $335 each, and one TSAR attended
                          language training at a cost of $8,750. In FY 2011, one TSAR attended
                          a Foreign Service Institute language training course at a cost of
                          $8,560. In FY 2010, one OGS inspector attended three training
                          courses totaling $8,452 to prepare for deployment to Iraq. In FY
                          2012, the most training money that OGS has spent on one employee is
                          $3,700. Table 7 shows the total amount spent on employees who
                          attended training during FYs 2010 and 2011, and the first quarter of
                          FY 2012.




6
 We requested, and OGS provided, data for external training only. We did not review in-house training
provided to OGS employees.




        Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                   Page 41

                  Table 7: Total Cost of Recent External Training by Employee 

                           $                 FY 2010           FY 2011          FY 2012
                        $0-999                 16                20               12
                     $1,000-1,999               5                15                5
                     $2,000-2,999               2                 0                3
                     $3,000-3,999               2                 2                1
                     $4,000-4,999               7                 5                0
                     $5,000-5,999               0                 2                0
                     $6,000-6,999               0                 0                0
                     $7,000-7,999               0                 0                0
                     $8,000-8,999               1                 1                0
                     $9,000-9,999               6                 0                0
                      $10,000 +                 3                 0                0

                  The ratio of male to female employees who have attended training
                  outside of OGS does not support the author's claim that management
                  favors female employees when approving training. In FY 2010, 42
                  employees attended external training courses. Of these 42 employees,
                  14 (33 percent) were females. In FY 2011, 45 employees attended
                  training, 12 (27 percent) of whom were females. In the first quarter of
                  FY 2012, 21 employees attended training, 7 (33 percent) of whom
                  were female.

                  Twenty-one of 144 employees told us that they had been denied a
                  training opportunity. Employees gave many reasons for why their
                  requests were denied. For example, four said that the continuing
                  resolution was the cause for their training request denial, and three
                  said that their denial was based on their workload. While four other
                  employees chose not to elaborate on their answers, the remaining
                  responses varied from their lack of initiative to request training and the
                  limited slots available for popular courses. One other employee felt
                  that they were denied training because of age discrimination.
                  However, this employee chose not to provide further explanation.
                  Training records indicate that employees in headquarters; the Miami,
                  Frankfurt, and Singapore Regional Operations Centers; TSARs; and
                  IIRs have attended external training, while employees from the Los
                  Angeles and Dallas Regional Operations Centers have not attended
                  any outside training courses (see table 8). However, there was no




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 42
                  indication that employees at these Regional Operations Centers had
                  been denied external training opportunities that they had requested.

                  Table S: External Training Throughout OGS
                         Location          FY 2010     FY 2011                       FY 2012
                        Headquarters          11         12                             5
                           Miami               3          9                             2
                     Dallas-Fort Worth         0          0                             0
                        Los Angeles            0          0                             0
                         Frankfurt             9          9                             4
                         Singapore             5          4                             2
                           TSAR               13          9                             4
                            IIR                0          2                             2
                     Locally employed          1          1                             2
                           staff�
                  �Locally employed staff are foreign nationals hired to provide administrative support
                  to the TSARs. OGS pays for their training, even though they are not OGS employees.

                  OGS management officials speculated that the approval of two
                  employees, both of whom were females, to attend training at George
                  Mason University's Mason Institute for Leadership Excellence at a
                  cost of $4,000 each might have contributed to the author's allegation.
                  In December 2010, the Office of Human Capital solicited nominations
                  from Assistant Administrators for high-performing I- and J-band
                  employees to attend the leadership program. The OGS Assistant
                  Administrator selected and nominated three female employees
                  assigned to OGS headquarters. Across TSA, Assistant Administrators
                  nominated 16 employees for the program. An Agency Review Panel
                  selected 10 candidates, 2 of whom were OGS nominees. On February
                  3, 2011, the Executive Resources Council approved the panel's
                  selections. Employees completed the training in March 2011.

                  OGS officials also identified a second situation that may have led to
                  this allegation. The Office of Personnel Management provides a
                  Public Sector Leadership course through the Federal Executive
                  Institute. This course, which costs $7,995, engages students in a
                  rigorous curriculum to refine their leadership strategies and develop
                  personal visions of public service. The Executive Resources Council
                  was not involved in the selection of the candidates to attend the




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 43
                  Federal Executive Institute course. The then-Deputy Assistant
                  Administrator for OGS explained that Office of Human Capital
                  announces the vacancies for the training. The OGS Directors
                  nominated candidates, and he decided which candidates to recommend
                  to the Assistant Administrator. He nominated one male and one
                  female, both of whom were K-band employees. One was assigned to
                  OGS headquarters and the other was a TSAR. The Federal Executive
                  Institute leadership course was ultimately canceled due to faculty and
                  enrollment issues, so no OGS employees attended and OGS incurred
                  no cost.

                  Hiring

                  Of the 144 employees we interviewed, 41 (28 percent) believe that
                  hiring in OGS is unfair. Some examples they gave included
                  noncompetitive selections, vacancies not being advertised, employees
                  not interviewing for positions before being hired, and inexperienced or
                  unqualified people being hired. Additionally, 46 employees (32
                  percent) said that they were aware of instances where OGS created
                  regional director, TSAR, supervisory desk officer, and other positions
                  for specific individuals.

                  However, it was apparent that many employees do not fully
                  understand all the methods that can be used to hire new employees,
                  which contributes to perceptions that OGS hiring practices are unfair.
                  TSA is an excepted service agency. It is not governed by most of Title
                  5 USC, or the policies and procedures established by the Office of
                  Personnel Management. TSA has many hiring flexibilities, including
                  the ability to hire competitively or noncompetitively.

                  To determine whether OGS has recruited and hired personnel in
                  accordance with the applicable TSA Management Directives, we
                  reviewed selected administrative and personnel records. We
                  determined that personnel selected for positions were qualified for
                  those positions. Where interviews were used as a means to select
                  candidates, those interviews involved a set of predetermined questions,
                  which were asked of every candidate, and a weighted scoring system
                  for each question. Additionally, we noted that the process for hiring
                  personnel to fill the Supervisory Desk Officer and TSAR positions




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 44
                  involved a selection committee composed of senior OGS personnel,
                  usually K-band Regional Managers, and a representative of the BMO.
                  We also reviewed interview panel notes, as well as the lists of
                  recommended applicants referred to division directors. In most cases,
                  OGS hired the recommended candidate. However, in the few
                  instances where the recommended candidate was not chosen, the file
                  contained evidence of the discussions resulting in the nonselection.

                  Abuse of Power

                  The author of the letter alleged that OGS management's abuse of
                  power is egregious, that OGS leadership manages through fear and
                  intimidation, and employees are fearful of retribution and retaliation.

                  Twenty-five of 144 employees we interviewed (17 percent) claimed
                  that they personally felt intimidated, while 46 (32 percent) said they
                  were aware that other employees had felt threatened by management.
                  These employees acknowledged that they were not directly informed
                  by the employees who felt this way. Overall, 37 percent of the
                  employees we spoke to have either personally felt threatened or
                  intimidated by management or have heard of others who have.

                  The primary reason employees gave for feeling intimidated was that
                  they receive constant reminders from OGS management that OGS
                  would happily transfer employees to OSO or other offices within TSA
                  should they fail to perform up to standards. Employees also asserted
                  that members of the management team have strong personalities and
                  are not receptive to opinions that may challenge their authority, and
                  that opposing viewpoints are not encouraged. Senior managers
                  acknowledge that they want employees who want to work in the
                  organization, readily admit that they are trying to change the culture in
                  OGS, and believe that they are holding every employee accountable.
                  The data suggest that many employees either are, or know of others
                  who are, not only uncomfortable with management's approach but
                  also feel intimidated by it. It is not clear to what extent this sentiment
                  stems from management intimidating the employees or from the
                  employees' perception that they are being intimidated. The number of
                  employees in OGS who felt they have been personally retaliated




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 4S
                  against was not as high as the number of employees who said they
                  knew of others who feared reprisal.

                  Out of 144 employees we interviewed, 15 (10 percent) said that they
                  were personally retaliated against by OGS management. A few chose
                  not to discuss their situation, but those who did said that they were not
                  considered for a supervisory position or for specific training. Thirty-
                  nine (27 percent) said that either they or other employees feared
                  retaliation for disagreeing with or questioning the actions of OGS
                  management. Employees said repeatedly that if they did not agree
                  with all of management's actions, they would either be subject to
                  retaliation or be ignored and labeled as a troublemaker. One employee
                  asserted that fear of retaliation is widespread throughout all of TSA
                  and that the inherent fear and heightened sense of anxiety is mostly
                  based on one's personality. Most of these 39 employees chose not to
                  explain why they fear reprisal for questioning management.

                  OGS Equal Employment Opportunity and MSPB Activity

                  Between October 1, 2007, and December 7, 2011, OGS employees
                  filed six informal and six formal Equal Employment Opportunity
                  (EEO) complaints and eight MSPB appeals alleging various forms of
                  discrimination, disability, nonsexual harassment, reprisal,
                  whistleblower retaliation, or improper personnel actions. Some of
                  these cases remain open and are in various stages of the complaint
                  process. Other cases were settled prior to the issuance of an Equal
                  Employment Opportunity Commission or MSPB decision, and the
                  remaining cases were decided in the agency's favor. There have been
                  no findings of discrimination against the agency with regard to current
                  or former OGS employees.

                  Of the six informal complaints, two cases are pending, two cases were
                  closed, and two cases were appealed to the MSPB. Of the six formal
                  complaints-all of which were filed during FY 2010-three cases are
                  pending hearings, one case was dismissed, one case was settled prior
                  to a formal hearing, and one case was decided for the agency.

                  Of the eight MSPB appeals, one case was withdrawn, four cases were
                  settled prior to an MSPB decision, one case was initially decided




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 46
                  against the agency but the decision was overturned upon appeal by
                  TSA, and the two remaining cases were decided for the agency.

                  OGS Has Taken Actions to Address Employee Concerns

                  OGS Survey

                  Every year, DHS administers an All Employee Survey to evaluate the
                  various components within DHS in 15 different areas concerning the
                  workplace. After the All Employee Survey was administered in 2009,
                  OGS conducted a follow-up survey to address the specific issues that
                  were prevalent within OGS as indicated by the department-wide
                  survey results. These issues were communications and business
                  operations, which include awards, training, and development. The
                  average percentage favorable in the communication category was 34
                  percent, and the average percentage favorable in business operations
                  was 39 percent. To address the communications issues, OGS
                  developed a Field Advisory Council, implemented annual visits to
                  field locations by the OGS Senior Leadership Team, and began
                  publishing a monthly newsletter. To address the business operations
                  issues, OGS developed standardized job analysis tools, implemented
                  an OGS employee of the quarter, developed performance metrics, and
                  published the first OGS organizational chart. Another OGS-wide
                  survey was conducted in 2011. The survey results showed higher
                  favorable percentages in all 15 categories. The two lowest categories
                  were still communications and business operations, but both showed
                  improvement. The average percentage favorable in communications
                  rose to 50 percent, and the average percentage favorable in business
                  operations rose to 47 percent.


                  The Business Management Office

                  OGS management has taken action to address employees'
                  misperceptions concerning hiring by developing and presenting
                  training about the various avenues by which personnel can be hired.
                  Known as the "BMO Road Show,� this training has been presented by
                  OGS' Human Resources Manager at all of the domestic Regional
                  Operations Centers, as well as at OGS headquarters and during a




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies

                                           Page 47
                  number of recent management conferences. The training seeks to
                  educate the workforce concerning the various flexibilities available to
                  TSA, as an excepted service agency, and how these are different from
                  what employees may be accustomed to from nonexcepted service
                  federal agencies.




Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                           Page 4S

Appendix A
Purpose, Scope, and Methodology

                        On May 18, 2011, the TSA Administrator received a letter from an
                        anonymous source that contained several allegations of misconduct
                        and mismanagement within TSA's Office of Global Strategies.
                        The author opined that the issues were known to TSA's Deputy
                        Administrator and that she was protecting the OGS Assistant
                        Administrator and Deputy Assistant Administrator by withholding
                        information from the Administrator. The Administrator referred
                        the matter to us for review. Our objective was to determine
                        whether the facts confirm allegations of management misconduct
                        through favoritism, discrimination, abuse, and program
                        mismanagement.

                        We initially set aside the author's statement concerning possible
                        protection of OGS management by the TSA Deputy Administrator
                        until we had a reason to pursue it. We found no evidence of these
                        activities.

                        We did not undertake a comprehensive evaluation of OGS' airport
                        and air carrier assessment program, in part because the
                        Government Accountability Office (GAO) had already conducted
                        one such review and was in the process of completing a second
                        review at the time our fieldwork was beginning. Additionally, the
                        TSA Office of Inspection had conducted inspections of Global
                        Compliance operations at TSA headquarters and at each of the
                        three domestic Regional Operations Centers that included reviews
                        of the assessment program. We reviewed selected assessment
                        reports, the process used to track assessment results and corrective
                        actions, and supporting documentation.

                        We did not review OGS' travel records. OGS personnel travel
                        extensively. Auditing these records would have prevented us from
                        reviewing most of the author's allegations. Moreover, the TSA
                        Office of Inspection had conducted an inspection of OGS travel
                        records in the months just prior to the initiation of our review and
                        was considering a reinspection at the time we started our review.

                        We reviewed applicable laws, regulations, and directives regarding
                        EEO and the various complaint processes. We also reviewed




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page 49

Appendix A
Purpose, Scope, and Methodology

                        demographics; awards and promotion information; training files;
                        hiring records; and applicable DHS, TSA, and OGS personnel
                        standards, policies, and procedures. We did not review records
                        concerning TSA Career Residency Program personnel assigned to
                        OGS because this program is administered by the Office of Human
                        Capital. Additionally, we reviewed the applicable laws,
                        regulations, and directives pertaining to a number of the
                        operational programs for which OGS is responsible. Finally, we
                        reviewed TSA Office of Inspection reports and GAO performance
                        audit reports and discussed the results with officials from both
                        organizations.

                        We conducted more than 225 interviews of officials within DHS,
                        TSA, and OGS headquarters, and with current and former OGS
                        employees. We conducted a site visit to the OGS Regional
                        Operations Center in Miami to interview management and staff
                        there. We conducted telephone interviews with OGS employees
                        stationed at the Dallas, Miami, Los Angeles, Frankfurt, and
                        Singapore Regional Operations Centers, as well as at various
                        embassies around the world. TSA and OGS senior leadership
                        cooperated and consulted with us throughout our review process.

                        We asked 144 OGS employees specific questions designed to
                        measure their perceptions of discrimination, retaliation, favoritism,
                        and potential abuse of power. We judgmentally selected OGS
                        employees from across the organization. This methodology
                        ensured that we had a good representation of the workforce in
                        terms of age, sex, pay band, position, and geographic location.

                        We began our fieldwork in June and ended it in November 2011.
                        This review was conducted under the authority of the Inspector
                        General Act of 1978, as amended, and according to the Quality
                        Standards for Inspections issued by the President's Council on
                        Integrity and Efficiency.




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S0

Appendix B
Recommendations

                       We recommend that the TSA Administrator:

                       Recommendation #1: Establish and implement timeframes for
                       issuing Emergency Amendments, including deadlines for TSA
                       offices involved in reviewing and providing comments on them.

                       Recommendation #2: Require rescreening for all passengers
                       arriving at U.S. ports of entry from preclearance airports that fail to
                       achieve comparable status.




   Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                              Page S1

Appendix C
Management Comments to the Draft Report




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S2

Appendix C
Management Comments to the Draft Report




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S3

Appendix C
Management Comments to the Draft Report




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S4

Appendix D
Current TSAR Locations and Areas of Responsibility

Region          TSAR                 Area of Responsibility
                Location
Europe          Berlin              Austria, Germany, Hungary, Slovakia, Slovenia, Turkey
                Brussels            Belgium, European Union (EU)
                The Hague           Denmark, Finland, Greenland, Netherlands, Norway,
                                    Sweden
                London              Iceland, Ireland, United Kingdom
                Madrid              Cape Verde, Spain, Portugal
                Paris               France, Luxembourg, European Civil Aviation
                                    Conference (ECAC), Switzerland
                Rome                Albania, Bosnia and Herzegovina, Bulgaria, Croatia,
                                    Cyprus, Greece, Israel, Italy, Kosovo, Macedonia,
                                    Malta, Romania, Serbia and Montenegro
                Warsaw              Armenia, Azerbaijan Republic, Belarus, Czech
                                    Republic, Estonia, Georgia, Kazakhstan, Kyrgyz,
                                    Latvia, Lithuania, Moldova, Poland, Russia, Tajikistan,
                                    Turkmenistan, Ukraine, Uzbekistan
Asia Pacific    Bangkok             Bangladesh, Burma, Cambodia, Laos, Thailand,
                                    Vietnam
                Beijing             China, Hong Kong, Macau, Mongolia, North Korea,
                                    South Korea
                Kabul               Afghanistan
                Manila              Kiribati, Marshall Islands, Micronesia, Palau,
                                    Philippines
                Singapore           Bhutan, Brunei, India, Indonesia, Malaysia, Maldives,
                                    Nepal, Pakistan, Singapore, Sri Lanka, Timor-Leste
                Sydney              Australia, Cook Islands, Fiji, Nauru, New Guinea, New
                                    �ealand, Niue and Tuvalu, Papua New Guinea, Pitcairn,
                                    Samoa, Solomon Islands, Tahiti, Tokelau, Tonga,
                                    Tuvalu, Vanuatu
                Tokyo               French Polynesia, Japan, New Caledonia, Society
                                    Islands, Taiwan, Wallis-Futuna
Western         Brazil              Brazil, Colombia, Ecuador, Paraguay
Hemisphere      Buenos Aires        Argentina, Bolivia, Chile, Peru, Uruguay
                Caribbean           Anguilla, Aruba, Bermuda, Bonaire (Netherlands
                North               Antilles), Cayman Islands, Curacao, Montserrat, Saba,




     Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                                Page SS

Appendix D
Current TSAR Locations and Areas of Responsibility

               (Miami)              St. Eustatius (Netherlands Antilles), St. Maarten,
                                    Suriname, UK Virgin Islands
               Caribbean            Antigua and Barbuda, Barbados, Dominica, Grenada,
               South                Guyana, Jamaica, St. Kitts and Nevis, St. Lucia, St.
               (Miami)              Vincent and the Grenadines, Trinidad and Tobago
               Central              Belize, Costa Rica, Dominican Republic, El Salvador,
               America              Guatemala, Honduras, Nicaragua, Panama, Venezuela
               (Miami)
               Mexico City          Mexico
               Nassau               Bahamas, Cuba, French Guiana, Guadeloupe, Haiti,
                                    Martinique, St. Barthelemy, Turks and Caicos
               Ottawa               Canada
Africa /       Abu Dhabi            Bahrain, Iran, Kuwait, Oman, Qatar, UAE
Middle East    Amman                Algeria, Egypt, Jordan, Lebanon, Libya, Mauritania,
                                    Morocco, Palestine Territories, Saudi Arabia, Syria,
                                    Tunisia, Western Sahara
               Johannesburg         Angola, Botswana, Congo, Comoros, Equatorial
                                    Guinea, Gabon, Lesotho, Madagascar, Malawi,
                                    Mauritius, Mozambique, Namibia, S�o Tom� and
                                    Pr�ncipe, South Africa, Swaziland, �ambia, �imbabwe
               Nairobi              Burundi, Central African Republic, Chad, Democratic
                                    Republic of Congo, Djibouti, Eritrea, Ethiopia, Kenya,
                                    Rwanda, Seychelles, South Sudan, Somalia, Sudan,
                                    Tanzania, Uganda
               West Africa          Benin, Burkina Faso, Cameroon, C�te d'Ivoire, Gambia,
               (Arlington,          Ghana, Guinea-Bissau, Liberia, Mali, Niger, Senegal,
               VA - HQ)             Sierra Leone, Togo
               AFRICOM              Multilateral Organizations and Projects: Saudi OPM-
               (Stuttgart,          MOI, ICAO, Safe Skies for Africa, African Civil
               Germany)             Aviation Commission, Arab Civil Aviation
                                    Commission, Banjul Accord Group, Arab League,
                                    African Union, Southern African Development
                                    Community




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S6

Appendix E
TSARs with Responsibility for the Caribbean

TSAR Nassau
Country     Airport          Airport Name                                      City
            Code
Bahamas     ASD              Andros Town International Airport                 Andros Town
            BIM              South Bimini Airport                              South Bimini
            ELH              North Eleuthera Airport                           N. Eleuthera
            FPO              Grand Bahama International Airport                Freeport
            GGT              Exuma International Airport                       Great Exuma Island
            GHB              Governor's Harbour Airport                        Governor's
                                                                               Harbour
               MHH           Marsh Harbour Airport                             Marsh Harbour,
                                                                               Abaco
               NAS           Lynden Pindling International Airport             Nassau
               TBI           The Bight Airport                                 New Bright
               TCB           Treasure Cay Airport                              Treasure Cay
               �SA           San Salvador Airport                              San Salvador
Cuba           CFG           Jaime Gonzalez Airport                            Cienfuegos
               CMW           Ignacio Agramonte International                   Camaguey
                             Airport
               GAO           Mariana Grajales Airport                          Guantanamo
               HAV           Jose Marti International Airport                  Havana
               HOG           Frank Pais Airport                                Holguin
               SCU           Antonio Maceo International Airport               Santiago
French
Guiana
Guadeloupe     PTP           Le Raizet Airport                                 Pointe-a-Pitre
Haiti          CAP           Cap-Haitien International Airport                 Cap-Haitien
               PAP           Toussaint L'Ouverture International               Port-au-Prince
                             Airport
Martinique  FDF              Le Lamentin Airport                               Fort De France
St.
Barthelemy
Turks and   PLS              Providenciales International Airport              Providenciales
Caicos
Total LPDs: 22




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S7

Appendix E
TSARs with Responsibility for the Caribbean

TSAR Caribbean North
Country       Airport Airport Name                                             City
              Code
Anguilla      A�A     Wallblake Airport                                        The Valley
Aruba         AUA     Queen Beatrix International Airport                      Oranjestad
Bermuda       BDA     Bermuda (L.F. Wade) International                        Hamilton
                      Airport
Bonaire       BON     Flamingo International Airport                           Kralendijk
(Neth.
Antilles)
Cayman        GCM     Owen Roberts International Airport                       Georgetown
Islands
Curacao       CUR     Hato International Airport                               Willemstad
Montserrat
Saba
St. Eustatius
(Neth.
Antilles)
St. Maarten S�M       Princess Juliana International Airport                   Philipsburg
Suriname
UK Virgin     EIS     Terrance B. Lettsome International                       Beef Island
Islands               Airport
Total LPDs: S




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page SS

Appendix E
TSARs with Responsibility for the Caribbean

TSAR Caribbean South
Country       Airport Airport Name                                             City
              Code
Antigua and ANU       V.C. Bird International Airport                          St. John's
Barbuda
Barbados      BGI     Grantley Adams International Airport                     Bridgetown
Dominica      DOM     Melville Hall Airport                                    Marigot
Grenada       GND     Maurice Bishop International Airport                     Point Salines
Guyana        GEO     Cheddi Jagan International Airport                       Georgetown
Jamaica       KIN     Norman Manley International Airport                      Kingston
              MBJ     Sangster International Airport                           Montego Bay
St. Kitts and NEV     Vance W. Amory International Airport                     Charlestown
Nevis         SKB     Robert L. Bradshaw International                         Basseterre
                      Airport
St. Lucia     SLU     George F. L. Charles Airport                             Castries
              UVF     Hewanorra International Airport                          Vieux-Fort
St. Vincent
and the
Grenadines
Trinidad      POS     Piarco International Airport                             Port of Spain
and Tobago TAB        Crown Point International Airport                        Scarborough
Total LPDs: 13


TSAR Central America
Country    Airport           Airport Name                                      City
           Code
Dominican  LRM               La Romana International Airport                   La Romana
Republic   POP               Gregorio Luperon International Airport            Puerto Plata
           PUJ               Punta Cana International Airport                  Punta Cana
           SDQ               Las Americas International Airport                Santo Domingo
           STI               Santiago Municipal International                  Santiago
                             Airport
Total LPDs: S




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page S9

Appendix F
Major Contributors to this Report


                        William J. McCarron, Chief Inspector
                        Wayne A. Ekblad, Senior Inspector
                        Anne Y. Cho, Inspector
                        Nicholas P. Ketter, Inspector




    Review of Allegations of Misconduct and Mismanagement Within TSA's Office of Global Strategies 


                                               Page 60

Appendix G
Report Distribution

                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Office of Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        TSA Audit Liaison
                        Director of Local Affairs, Office of Intergovernmental Affairs

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




    Review of Allegations of Misconduct and Mismanagement within TSA's Office of Global Strategies 


                                               Page 61

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
